April 17, 2020
BY ELECTRONIC FILING & FIRST-CLASS MAIL
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

William Barr v. Cesar Alcaraz-Enriquez, No. 19-1156

Dear Mr. Harris:
I represent respondent in the above-referenced petition for certiorari. A response is currently due
on April 20, 2020. Respondent respectfully requests that the time to file a response be extended
by 60 days, to and including June 19, 2020. The extension is warranted because the attorneys
assigned to this matter have been heavily engaged in the press of other matters, and faced
logistical challenges arising from the COVID-19 pandemic. In addition, the Court recently
granted a 60-day extension of the deadline to file a response in Barr v. Ming Dai, No. 19-1155,
to and including June 19, 2020. Both cases present the same question, and the Solicitor General
has requested that the petitions be considered together. An extension would ensure that the
undersigned has an opportunity to thoroughly analyze the issues presented by this case and
enable the petition to be considered alongside Ming Dai.
Respectfully submitted,
Robert Jobe
Counsel of Record for Respondent
Cc:

Noel J. Francisco, Solicitor General

